C'OCKLE

2311 Douglas Street CA E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B Etats contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 21-351

COURTNEY WILD,
Petitioner.
v.
UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF FLORIDA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
THE NATIONAL CRIME VICTIM LAW INSTITUTE, ET AL. IN SUPPORT OF PETITIONER
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5643 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this Ist day of October, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

aemrmaern| Kease 9. tlaoo? Ondine Ohl,

(My Comm. Exp. September 5, 2023
Notary Public Affiant

 
